office of inspector gener al
semiannual report
    to congress
  APRIL 1, 2013 to SEPTEMBER 30, 2013
                                      FOREWORD
In the current budget climate, Federal agencies must maximize the value of every dollar they
receive. National Archives and Records Administration (NARA) staff have responded, and they
are indeed doing more with less. Stories abound about NARA staff going above and beyond to
deliver excellent service to all of NARA 's stakeholders. Notwithstanding these incredible
personal efforts, if NARA is to accomplish its mission, management must address the agency's
continued weaknesses in internal controls.

Internal controls are essential for government organizations to operate efficiently and
effectively. This tried-and-true adage has been proven true time and time again across all levels
of government. As the Federal budget situation becomes increasingly constrained, internal
controls only gain importance. In the Foreword to our last Semiannual Report to Congress, I
addressed NARA 's lack of effective internal controls, stating "It is past time for NARA to devote
the efforts necessary to address this ongoing deficiency." Six months later, some offices have
made strides, but NARA must make additional efforts agency-wide.

However, the outlook is improving. Senior leadership is beginning to embrace internal controls
and acknowledge their importance. This is a welcome development, but is akin to turning the
rudder on a large ship; it needs to be held for a long time before the vessel's direction actually
changes. The Archivist has the ability to make such a course correction for the agency.
Indeed, it appears he is trying to do so.

It must be emphasized that once NARAfully embraces internal controls, the work is not over,
even after they are designed and implemented. An internal control is a process, a means to an
end, not an end in and of itself. Once implemented, it must be monitored, evaluated and
adapted to provide the best results. This is how an effective internal control program truly
provides unparalleled value to an organization, through continuous improvement. Through
our services, including auditing and investigating, we will give NARA the information needed to
evaluate the effectiveness of its internal control program. In the end, if NARA dedicates the
resources necessary to implementing an effective internal control program, agency operations
will improve, and together we will reduce fraud, waste and abuse.

As with many Federal offices, the current fiscal situation continues to have a major impact on
the Office of Inspector General (OIG). Funding levels directly affect our staffing levels, and
thus affects the work we are able to address. Regardless of these difficulties, I know the
hardworking men and women of the OIG will persevere. The dedication and professionalism I
see every day in this office makes me proud and inspires me to live up to the standards they set.
Additionally, I appreciate the cooperation and support NARA has shown for the OIG mission,
and their commitment to working with the OIG to improve NARA through effective oversight.


                                                 ~~--~~
                                                    James Springs
                                                    Acting Inspector General



SEMIANNUAL REPORT TO CONGRESS
April I, 2013 to September 30, 2013                                                 Page i
TABLE OF CONTENTS
Foreword ......................................................................................................................................... i

Executive Summary .......................................................................................................................2

Introduction ...................................................................................................................................5

Activities .........................................................................................................................................7

Audits ...........................................................................................................................................10

           Electronic Records Archive (ERA) System’s Ability to Ingest Records ....................11
           NARA’s Data Backup Operations..................................................................................12
           NARA’s Intrusion Detection and Prevention Systems and Incident Response ........13
           NARA’s Preservation Program ....................................................................................13
           NARA’s Archival Facilities ...........................................................................................14
           NARA’s Processing Program .........................................................................................14
           Handling of Paper-Based Disclosure of Personally Identifiable Information............15

Investigations ................................................................................................................................16

           General Investigations .....................................................................................................17
           Archival Recovery Team Activity ..................................................................................18
           Computer Crimes Unit ....................................................................................................21
           OIG Hotline ......................................................................................................................22

Significant Management Decisions the Inspector General Disagrees With ...........................23

Top Ten Management Challenges .............................................................................................25

Reporting Requirements ............................................................................................................30




 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1
April 1, 2013 to September 30, 2013
EXECUTIVE SUMMARY
This is the 50th Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                      Audits and Reports
The Audit Division continued to examine NARA’s Information Technology (IT) systems,
including the Electronic Records Archives (ERA) system, and assess the economy and
efficiency of NARA’s programs and operations. During the reporting period, we issued the
following audit reports and management letters.

Information Technology (IT)
    •   Electronic Records Archive (ERA) System’s Ability to Ingest Records. Federal
        agencies were not using the Base ERA System as envisioned, and the system could not
        effectively ingest all electronic records. Despite NARA guidance for agencies to use
        Base ERA, a high percentage of agencies have not performed any work in Base ERA.
        Additionally, Base ERA’s usefulness is limited by performance issues. (OIG Audit
        Report #13-11, dated September 19, 2013. See page 11.)

    •   NARA’s Data Backup Operations. With the exception of ERA, there were regular,
        successful data backups on the systems reviewed. A full backup for one ERA instance
        had not been accomplished since May 2011. However, security control weaknesses
        jeopardized NARA’s ability to sufficiently protect the confidentiality, integrity, and
        availability of data backups. A cost savings of $31,900 was also identified. The
        payments made for offsite storage of backup tapes were referred for review to determine
        if NARA’s procurement process as well as Federal laws and regulations were violated.
        (OIG Audit Report #13-09, dated July 09, 2013. See page 12.)

    •   NARA’s Intrusion Detection and Prevention Systems (IDPSs) and Incident
        Response. In general, it appears NARA’s IDPSs operate effectively, and incidents are
        appropriately handled. However, opportunities for improvement exist in areas including:
        (a) logical security and configuration of the host intrusion prevention system; (b)
        contract management and monitoring; (c) incident response and reporting to the United
        States Computer Emergency Readiness Team (US-CERT); and (d) physical security of
        the host intrusion prevention servers. (OIG Audit Report #13-12, dated September 10,
        2013. See page 13.)

Programs and Operations

    •   NARA’s Preservation Program. Deficiencies in the Preservation Program
        significantly affect NARA’s ability to fulfill its mission of safeguarding and preserving
        Federal records. Although some improvements have been made since a previous audit,
        Preservation remains a material weakness. Records remain at risk of loss and


SEMIANNUAL REPORT TO CONGRESS                                                              Page 2
April 1, 2013 to September 30, 2013
EXECUTIVE SUMMARY
        deterioration, thereby risking availability for access and use by future generations. (OIG
        Audit Report #13-08, dated July 09, 2013. See page 13.)

    •   NARA’s Archival Facilities. Several archival facilities may not be in compliance with
        NARA’s Archival Storage Standards. As a result, inadequate record storage
        environments could lead to premature deterioration of records. (Audit Memorandum
        #13-10, dated July 19, 2013. See page 14.)

    •   NARA’s Processing Program. Processing involves all the steps needed to open a
        record to the public, approximately 40% of NARA’s textual holdings have not been
        processed. This persistent processing backlog places records at risk, increases the time
        for reference requests, and impairs the agency's ability to describe the records online, and
        may be limiting the access to records. Although NARA has made significant strides in
        reducing the backlog, additional effort is needed to reduce the material weakness. (OIG
        Audit Report #13-14, dated September 18, 2013. See page 14.)

    •   Handling of Paper-Based Disclosure of Personally Identifiable Information (PII).
        Current practices at the National Personnel Records Center occasionally result in the
        improper release of PII. A lack of sufficient management controls on handling these
        releases, may result in inappropriate use of information by unauthorized individuals.
        (OIG Audit Memorandum 13-15, dated September 25, 2013, See page 15.)

Management Issues

    •   The Management Control Environment over Archival Operations at the National
        Archives at San Bruno, CA Needs to be Urgently Addressed. Serious management
        control weaknesses at the National Archives at San Bruno, CA (RW-SB) put NARA
        records at risk of loss. Specifically, archival operations at RW-SB were in dire straits.
        While researchers are consistently provided extensive personal service; the accessioning,
        processing, and maintenance of records runs “on desperation and panic.” The facility
        lacks policies and procedures for basic operations, and lacks the organizational structure
        needed to sustain operations. Currently RW-SB operations are primarily dependent on
        the personal experience and knowledge of select staff. There are no continuity plans,
        and should these employees be unavailable for work it would severely impact RW-SB’s
        ability to locate and serve records. In our opinion, due to the management control
        weaknesses identified, RW-SB may not have appropriate physical or intellectual control
        over NARA’s holdings. (OIG Management Letter #13-13, dated July 9, 2013.)




SEMIANNUAL REPORT TO CONGRESS                                                              Page 3
April 1, 2013 to September 30, 2013
EXECUTIVE SUMMARY
                                        Investigations
Significant accomplishments by the Office of Investigations (OI) during this reporting period
include:

    •   The OI facilitated the return of 6,466 documents to repositories across the country.

    •   The Archival Recovery Team (ART) recovered a Federal record authored by Major
        General George Custer that had been listed on the Missing Documents list.

    •   ART assisted NARA in recovering 18,163 photographs documenting implementation of
        the Marshall Plan in France.

    •   The OI visited a Presidential library to assess its archival security in the wake of a theft
        from the facility. Several issues were discovered and reported to NARA management.

    •   The OI visited four NARA facilities to assess the researcher registration procedures
        used. The OIG issued a report detailing the conditions discovered, and proposing
        suggestions to improve the program.

    •   The Department of Justice (DoJ) filed informations on two former NARA employees for
        destruction of Federal property.

The OI opened 10 investigations and 25 complaints for preliminary investigation, while closing
13 investigations and 24 complaints. At the end of this reporting period, the OI had 15 ongoing
investigations and 7 complaints. The OI referred two assessments to NARA management for
information or appropriate action. Fifty-five percent of the ongoing investigations and
complaints involve the potential alienation of NARA holdings. This number reflects continuing
OI efforts to identify and investigate lost, missing, and stolen NARA holdings. The DoJ
continues to work with the OI on investigations, including allegations of theft and destruction of
Federal records.




SEMIANNUAL REPORT TO CONGRESS                                                                 Page 4
April 1, 2013 to September 30, 2013
INTRODUCTION
        About the National Archives and Records Administration

Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 225 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 4.6 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains nearly 600,000 artifact
items and approximately 521 terabytes of electronic records. The number of records born and
stored solely in the electronic world will only continue to grow, thus NARA developed the
Electronic Record Archives to attempt to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2013, NARA had 40.8
million online visits in addition to hosting 3.2 million traditional museum visitors, all while
responding to approximately 1.1 million written requests from the public. NARA also publishes
the Federal Register and other legal and reference documents, forming a vital link between the
Federal Government and those affected by its regulations and actions. Through the National
Historical Publications and Records Commission, NARA helps preserve and publish non-Federal
historical documents that also constitute an important part of our national heritage. Additionally,
NARA administers 13 Presidential libraries preserving the papers and other historical materials
of all past Presidents since Herbert Hoover.

Resources
In Fiscal Year (FY) 2013, NARA requested an annual budget of approximately $382.7. With the
mandatory spending cuts under sequestration, NARA was funded at approximately $371 million
for FY 2013. With approximately 3,023 (estimated) Full-time Equivalents (FTEs), NARA
operates 46 facilities nationwide. As a cost savings measure, NARA has implemented a hiring
freeze since November 2011. At the end of FY 2012, the hiring freeze had resulted in 213 fewer
full-time employees actually working.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 5
April 1, 2013 to September 30, 2013
INTRODUCTION
                  About the Office of Inspector General (OIG)
The OIG Mission
The OIG serves the American citizen by improving the effectiveness, efficiency and economy of
NARA programs and operations. As part of our mission we detect and prevent fraud and abuse
in NARA programs, and strive to ensure proper stewardship over Federal funds. We accomplish
this by providing high-quality, objective audits and investigations, and serving as an
independent, internal advocate. Unique to our mission among other OIGs is our duty to ensure
NARA protects and preserves the items belonging in our holdings, while safely providing the
American people with the opportunity to discover, use and learn from this documentary heritage.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•   assesses the effectiveness, efficiency, and economy of NARA programs and operations;
•   recommends improvements in policies and procedures to enhance operations and correct
    deficiencies;
•   recommends cost savings through greater efficiency and economy of operations, alternative
    use of resources, and collection actions; and
•   investigates and recommends legal and management actions to correct fraud, waste, abuse, or
    mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2012, Congress provided $4.1 million for the OIG’s appropriation, including authorization
for 23 FTEs. However, mandatory spending cuts under sequestration left the OIG’s FY 2013
budget at approximately $3.9 million. This has affected our ability to fully staff the office.
Currently the OIG has 19 FTEs on board, including one Inspector General, one support staff,
nine FTEs devoted to audits, seven FTEs devoted to investigations, and a counsel to the
Inspector General.

Further, a continuing concern is the OIG would lack funding to investigate an incident outside of
Washington, DC, at the end of the fiscal year. We feel it would not be prudent to ask for
increased appropriated funds each year for such a contingency. Instead, we have sought a
limited transfer provision from NARA, so we could ask for available end-of-year funds in such a
circumstance. However, NARA management does not support our position and states they will
not request such a transfer provision.



SEMIANNUAL REPORT TO CONGRESS                                                            Page 6
April 1, 2013 to September 30, 2013
ACTIVITIES
                Involvement in the Inspector General Community
Counsel of Inspectors General on Integrity and Efficiency (CIGIE)
Legislation Committee
The IG served as a member of the CIGIE Legislation Committee, and OIG counsel was involved
in drafting the Committee’s comments to Congress on multiple pieces of pending legislation.
The Legislation Committee provides regular and ongoing communication regarding legislative
issues and other matters of common interest between the Congress and CIGIE. Specifically, the
Committee provides timely information about congressional initiatives to the IG community;
solicits the views and concerns of the community in response to legislative initiatives and
congressional requests; and presents views and recommendations to congressional committees
and staff, the Government Accountability Office, and the Office of Management and Budget on
issues and legislation affecting the IG community.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. The AIGA attended FAEC’s meeting to discuss topics such as financial statement audit
issues, audit training, opinion reports on internal controls, and information security.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI Committee serves as a standing subcommittee to the CIGIE Investigations Committee.
As a member, the AIGI helps provide guidance, assistance and support to the CIGIE
Investigations Committee in the performance of its duties. In addition, the AIGI Committee
serves as a conduit for suggestions, issues and concerns affecting the OIG investigations
community.

Investigations Committee Program Fraud Civil Relief Act Working Group
As a member of the Investigations Committee Program Fraud Civil Relief Act (PFCRA)
working group the OIG counsel continued to contribute to promoting the use of PFCRA
throughout the IG community. This included drafting part of a PFCRA manual for IG-wide use.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel continues to be an active member of the CCIG. The CCIG provides a rich
environment wherein legal issues can be raised and interpretations can be presented and
reviewed with an experienced network of OIG lawyers. OIG counsel also mentored a new
attorney at a large OIG who had no previous IG experience.

CIGIE Training Institute
The OIG counsel continued to work with the CIGIE Training Institute to develop and teach the
IG Authorities course.

Whistleblower Ombuds Working Group (WOWG)
In accordance with the spirit of the Whistleblower Protection Enhancement Act of 2013, the OIG
is forming a whistleblower ombuds program, and is working with the WOWG to learn best
practices and implement an effective training program.

SEMIANNUAL REPORT TO CONGRESS                                                           Page 7
April 1, 2013 to September 30, 2013
ACTIVITIES
                    Management Assistance and Other Work
•   Provided comment and input into several NARA directives and regulations covering a
    variety of topics. This included NARA’s Domestic Violence Policy; NARA 396, NARA’s
    Anti-Harassment Program; NARA 1604, Denying or Revoking Researcher Privileges,
    Banishment of Researchers, and Appeals; NARA 108, Information Collections; and others.

•   Assisted NARA and provided guidance to implementing new whistleblower protections
    afforded by Presidential Policy Directive 19.

•   Reviewed and updated NARA 190, Office of Inspector General – Investigations.

•   Responded to multiple requests for OIG records under the Freedom of Information Act
    (FOIA), and coordinated with the Department of Justice (DoJ) on FOIA requests pertaining
    to joint work between the DoJ and NARA.

•   Reviewed legislative and OMB proposals and provided feedback to appropriate entities, and
    reviewed newly passed legislation for its affect on NARA and the NARA OIG.


                                 Peer Review Information

Peer Review of NARA OIG’s Audit Organization
The NARA OIG audit function was last peer reviewed by the Federal Communications
Commission (FCC) OIG in accordance with the Government Accountability Office’s
Government Auditing Standards (GAS) and CIGIE guidelines. FCC OIG concluded “the system
of quality control for the audit organization of NARA OIG in effect for the year ended
September 30, 2010, has been suitably designed and complied with to provide NARA OIG with
reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Federal audit organizations can receive a rating of pass; pass
with deficiencies, or fail. NARA OIG has received a peer review rating of pass.” There are no
outstanding recommendations from this review. NARA’s next audit organization peer review is
scheduled to begin in October 2013, and will be performed by the Federal Deposit Insurance
Corporation OIG.

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May of 2008. There are no outstanding recommendations from this review.

In February 2012, the Attorney General of the United States granted the Inspector General’s
application for statutory law enforcement authority. Accordingly, the OI has begun preparations
for the now mandatory peer review that must be completed within three years of being granted
statutory authority. The peer review is currently scheduled for late 2014.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 8
April 1, 2013 to September 30, 2013
ACTIVITIES
                           Response to Congressional Items

Information on Open and Unimplemented Audit Recommendations
The House Oversight and Government Reform Committee requested, and was provided with,
information regarding the open and unimplemented audit recommendations. At the time there
were 312 open and unimplemented recommendations representing $9,059,262 in cumulative
estimated annual cost savings. Further information was provided on specific recommendations.

Information NARA Facilities
The OIG provided information on NARA facilities in response to a Congressional request.

Reducing Over-Classification Act Evaluation
The Reducing Over-Classification Act (P. L. 111-258) mandates Inspectors General of
Federal entities with an officer or employee who is authorized to make original
classifications to (A) assess whether applicable classification policies, procedures, rules, and
regulations have been adopted, followed, and effectively administered within such
department, agency, or component; and (B) identify policies, procedures, rules, regulations or
management practices that may be contributing to persistent misclassification of material.

The Director of the Information Security Oversight Office (ISOO) is designated with original
classification authority. ISOO, an administrative component of NARA, is responsible to the
President for policy oversight of the Government-wide security classification system and the
National Industrial Security Program, The ISOO Director has responsibility for
classification determinations in instances when there is an exceptional need to classify
information but an agency with appropriate subject matter interest and classification
authority cannot be readily determined. The ISOO Director has never used this authority.

Our limited evaluation found the ISOO Director does not have a classification guide due to
the lack of instances of this type of special classification. However, ISOO develops security
classification policies for the Government, and evaluates the effectiveness of the security
classification programs established by Federal agencies. ISOO indicated it would follow the
policies found in Executive Order 13526, Part 1 and 32 CFR, Part 2001, Subparts B and C.
guidance, if needed.

Inventory of Commercial Activities

We submitted to OMB our FY 2013 inventory of commercial activities performed by OIG
employees as required under the Federal Activities Inventory Reform Act of 1998 (the FAIR
Act). OMB is required to list the available inventories in the Federal Register. The agency head
must transmit a copy of the inventory to the Congress and make it available to the public.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 9
April 1, 2013 to September 30, 2013
AUDITS
                                                 Audit Overview
This period, we issued:

     • five final audit reports;
     • two audit memorandums 1; and
     • one management letter. 2

We completed fieldwork on audits of:

    •    Management and Oversight of NARA’s Energy Savings Performance Contracts, to
         determine whether these contracts were properly managed and effectively overseen; and

    •    Use of Presidential Library Facilities by Outside Organizations, to determine whether
         NARA is adhering to governing NARA policy, and applicable federal laws and
         regulations.

We initiated or continued work on audits of:

    •    Selected Aspects of NARA’s Digitization Program, to determine whether management
         controls adequately address agency and customer needs, and ensure greater access to
         NARA holdings;

    •    NARA’s Rental Payments to Federal Agencies, to determine if rental payments to federal
         agencies other than to GSA are appropriate; the interagency agreements are in NARA’s
         best interest; and NARA is receiving services in accordance with the agreement;

    •    NARA’s Wireless Network, to assess the policies, implementation and security of
         NARA’s wireless network;

    •    Specially Protected Records (SPRs), to determine whether offices are protecting,
         controlling, handling, and accounting for SPRs in accordance with NARA guidance; and

    •    NARA’s Capital Planning and Investment Control (CPIC) Process, to determine whether
         NARA’s CPIC process and procedures adhere to governing NARA policy and applicable
         Federal laws and regulations.




1 An audit memorandum is used when an audit is performed and there are either no findings or the findings are insignificant.
2 Management letters are used to address issues which need to be quickly brought to the Archivist’s or management’s attention.


SEMIANNUAL REPORT TO CONGRESS                                                                                         Page 10
April 1, 2013 to September 30, 2013
AUDITS
                                            Audit Summaries
Electronic Records Archive System’s Ability to Ingest Records
We found Federal agencies were not using the Base ERA System 3 as envisioned, and the system
lacked the ability to effectively “ingest” all electronic records. Ingest is the process of bringing
electronic records into the ERA System, including the physical transfer of electronic records into
ERA. NARA has been developing, testing, and refining the ERA System since 2005, with a
development cost over $390 million. The estimated annual cost to operate and maintain the ERA
System is approximately $30 million.

NARA Bulletin 2012-03, issued August 21, 2012, informed Federal agencies that as of October
1, 2012, NARA will use ERA for scheduling records and transferring permanent records.
Despite NARA’s guidance, a high percentage of agencies have not performed any work in Base
ERA. As of May 1, 2013 266 agencies received Base ERA training. Of these 266 agencies,
52% have never performed work in Base ERA, and only 84 have electronic records ingested into
Base ERA. Further, despite NARA’s intent for all agencies to perform the ingest function for
themselves online, only four have done so. The remaining 80 agencies relied on NARA to ingest
electronic records on their behalf. Through March 2013, only 5.2 TB of electronic records had
been transferred into Base ERA. Of this, Federal agencies initiated ingest of only 3.2 TB. The
remaining electronic records came from NARA’s Legacy Archival Preservation System.

When asked about this situation a NARA official stated NARA processing archivists are
directing agencies not to ingest records themselves online, because agencies typically do not
create well-structured, well-understood, “clean” records. This official said the agencies that have
not done any work are mostly small agencies and commissions. Such agencies usually do not
frequently schedule records or transfer permanent records, and only interact with NARA once
every few years or longer. Federal agencies provided several reasons for not transferring
electronic records into Base ERA by themselves online. The reasons included: not being ready
to do so, comfort allowing NARA to ingest records on their behalf, following the guidance of
NARA, having no applicable data to ingest, having records with security issues, and
experiencing issues with Base ERA. However, NARA management stated many agencies
should have better records management programs and should be working more frequently with
NARA to increase usage of Base ERA.

Additionally, Base ERA’s usefulness is limited by performance problems when ingesting large
amounts of data. When using the Internet to transfer records, packages or shipments of files with
a size of 1GB (and sometimes less) fail to transfer from agency sites to the Base ERA ingest
staging area. The system also fails when a user attempts to ship a package containing 10,000 or
more files. Lastly, transfer requests (which may contain multiple packages) fail if the number of
files/folders associated with the transfer request approaches or exceeds 100,000 files. NARA
believes system design limitations may be the cause of some of these weaknesses, but the actual
cause for all of them is not known.

3 The ERA System has been developed as a conglomeration of subsystems or “instances.” The Base ERA System,
or “Instance,” is the system to archive nonclassified records of Federal agencies. Other ERA subsystems archive
records from other entities, such as Presidential Records, or single large data sets, such as the 2012 Federal Census.

SEMIANNUAL REPORT TO CONGRESS                                                                                Page 11
April 1, 2013 to September 30, 2013
AUDITS
As a result, the system is of limited use to NARA and other Federal agencies. For example, over
30 TB of data is in the ingest staging area because the size of these files prevent them from being
processed through Base ERA. Since this data has not gone through the ERA System, it is not
being preserved, and is not searchable within ERA.

The system’s deficiencies must to be addressed for NARA and Federal agencies to use it as
effectively and efficiently as envisioned. If not addressed, these issues could worsen
considerably in future years as data volumes are expected to increase significantly. An outside
entity reported Federal agencies currently store an estimated 1.6 petabytes of data, and this is
projected to increase to 2.6 petabytes within the next two years. Further, NARA officials need to
begin planning for an increase in the size of files as well as the volume of data.

We made three recommendations to enhance the system’s usefulness to NARA and other Federal
agencies. Management concurred with all three recommendations. (OIG Audit Report #13-11,
dated September 19, 2013.)

NARA’s Data Backup Operations
Overall, with the exception of the ERA, successful backups were accomplished on a regular
basis for the systems reviewed. However, security control weaknesses were identified. Our
review focused on whether NARA had documented plans and procedures for backing up data,
whether backups were occurring on a regular basis, whether backups were tested to verify media
reliability and information integrity, and whether the backup copies of the operating system and
other critical information system software were stored in a separate facility from the operational
software.

While, generally, NARA was making regular successful backups, it had not produced a full
backup for one instance of the ERA system since May 2011. Further, security control
weaknesses existed within NARA’s data backup operations which jeopardized NARA’s ability
to sufficiently protect the confidentiality, integrity, and availability of data backups. For
example, backup tapes containing Personally Identifiable Information (PII) were not encrypted to
protect the information while stored offsite; backups were not regularly tested to ensure data
could be restored in usable form; and backup media was not rotated offsite each week as
prescribed.

We also found an opportunity for cost savings related to off-site data tape storage. NARA
decreased the number of tapes and other storage media stored offsite, but did not return the
excess containers to the contractor. Thus NARA continued to pay for these containers. Over the
last seven years, NARA has spent about $31,900 that could have been put to better use. By
reviewing and reducing the number of containers kept in the rotation for offsite storage, NARA
could significantly reduce the cost of this service. In general, the payments made for offsite
storage of backup tapes need further review to determine if NARA violated its procurement
process as well as Federal laws and regulations. In addition, the payment for offsite storage costs
may have been improper, and if so, NARA has paid approximately $48,712 over the last four
years that could have been put to better use.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 12
April 1, 2013 to September 30, 2013
AUDITS
We made 11 recommendations intended to strengthen the management, accountability, and
oversight of the data backup and recovery processes at NARA. Management concurred with all
11 recommendations. (OIG Audit Report #13-09, dated July 9, 2013.)

NARA’s Intrusion Detection and Prevention Systems (IDPS) and Incident
Response
Intrusion detection and prevention systems (IDPSs) detect, monitor, analyze, and prevent
possible malicious activity occurring in computer systems or a network. Incident response is a
process to analyze and resolve an incident to minimize adverse effects. We audited NARA’s
IDPSs and computer security incident response process to determine whether: (1) NARA’s
IDPSs had been properly implemented and are operating effectively; (2) appropriate logical and
physical security, and environmental protection controls are in place, and; (3) NARA’s computer
security incident response process is effective and efficient, including whether incident response
staff are adequately trained.

In general, it appeared NARA’s IDPSs were operating effectively, and incidents were handled
appropriately. However, we identified opportunities for improvement. First, an excessive
number of privileged user accounts existed on NARA’s centralized host-based intrusion
prevention system and anti-virus management application, and the password policy was not
systematically enforced. This may result in abuse or unauthorized use of the accounts, possibly
causing undesirable changes to the system and data. Further, NARA’s poor oversight on its
Trusted Internet Connections contractor resulted in unmet service-level agreements going
undetected and lost service credits. Additionally, although network attacks evolve over time,
there is no process at NARA to ensure NARA’s Computer Incident Response Team receives
internal or external training to remain up to date. Also, the incident handling process was not
always monitored and supervised properly, causing delayed resolution and reporting of incidents.
Finally, we identified opportunities to improve physical security controls at NARA’s computer
room at Archives II.

We made a total of 18 recommendations to enhance NARA’s ability to secure its IDPS devices
and respond to computer security incidents effectively upon implementation. Management
concurred with all 18 recommendations (OIG Audit Report #13-12, dated September 10, 2013.)

NARA’s Preservation Program
We assessed whether NARA’s Preservation Program was still a material weakness. The
program was first identified as a material weakness seven years ago in the Evaluation of NARA’s
Preservation Program (OIG Report 05-13, dated June 2005). We also assessed whether
program controls were adequate to meet the mission of preserving Federal records. Based on the
deficiencies identified, we determined the Preservation Program should remain a material
weakness. Although the audit revealed some improvements were made to the program, the new
deficiencies noted significantly affect NARA’s ability to fulfill its mission of safeguarding and
preserving essential and important records of our Federal Government. Additionally, as a result
of these deficiencies, records remain at risk of loss and deterioration, thereby risking availability
for access and use by future generations.



SEMIANNUAL REPORT TO CONGRESS                                                                Page 13
April 1, 2013 to September 30, 2013
AUDITS
Specifically, we found:
   • Management has not implemented a comprehensive and cohesive strategy for addressing
       NARA’s Preservation Program weaknesses. It is difficult to manage the wealth of
       existing preservation information essential for decision-making without this strategy.
   • There continues to be a large and persistent backlog of records requiring preservation
       actions and a lack of dedicated resources to address those actions.
   • While NARA has implemented a more robust risk assessment process for identifying
       needed preservation actions, the agency lacks the ability to fully integrate and transform
       this data into meaningful information for effective decision making.

We made six recommendations to assist NARA in its efforts to implement a risk based approach
for managing the Preservation Program. Management concurred with all six recommendations
(OIG Audit Report #13-08, dated July 9, 2013.)

NARA’s Archival Facilities
This was the second report related to NARA’s Preservation Program. We found some archival
facilities may not be in compliance with Archival Storage Standards, which establish structural,
environmental control, fire safety, preservation, and security standards. Until all archival
facilities can comply, records maintained at the facilities are at risk for premature deterioration
because of inadequate records storage environments and harmful contaminants.

The Chief Operating Officer will take the lead in completing a comprehensive review of the
Archival Storage Standards, identifying an accurate listing of noncompliant facilities, and
developing an action plan. (OIG Audit Memorandum #13-10, dated July 19, 2013.)

NARA’s Processing Program
This audit sought to assess the process of making archival records available to the public, and to
determine whether the processing of textual records continues to be a material weakness. We
found several issues, and determined the processing program continues to be a material
weakness.

Our 2007 audit revealed NARA was constrained in its ability to provide efficient and effective
access to its holdings, and was not adequately meeting the mission of ensuring public access to
records as soon as legally possible, resulting in a material weakness in the processing program.
At that time, the backlog of unprocessed records was approximately 70% of NARA’s textual
holdings. NARA has made progress, and as of the end of FY 2012, NARA’s processing backlog
was approximately 40%. However, NARA will not meet its current strategic goal of being 95%
processed by FY2016. While there is an agency-wide processing goal, each Research Services
field location and each Presidential library has operated in silos when determining how to
decrease its individual backlog and to meet the overall agency goal. No one office currently
provides oversight for the processing program. We also found the following:

    •   Offices have different definitions of what constitutes processing, and an overall agency
        policy guiding processing decisions had never been created.
    •   Some Research Services field locations did not have a plan in place for reducing their
        processing backlogs, or the plan in place was not adequate.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 14
April 1, 2013 to September 30, 2013
AUDITS
    •   NARA has been serving unprocessed records to researchers. Providing access to
        unprocessed records could result in the unintentional disclosure of protected data or
        personally identifiable information (PII).
    •   Staff is not effectively organized and assigned to reduce the current backlog.
    •   The processing backlog at the Presidential Libraries has remained stagnant since
        measures were established in 2008. In addition, no performance measure exists for
        accurately tracking processing workloads and backlogs for the Presidential Libraries’
        electronic records (representing hundreds of millions of logical data records).
    •   Inaccurate processing data had been reported in the Performance Measurement Reporting
        System for two offices.
    •   Documented processing procedures either did not exist or were outdated.

We made eight recommendations intended to strengthen NARA’s processing program.
Management concurred with each of the recommendations included in the report. (OIG Audit
Report #13-14, dated September 18, 2013.)

Handling of Paper-Based Disclosure of Personally Identifiable Information
As part of our audit on NARA’s Intrusion Detection and Prevention Systems (IDPS) and
Incident Response (discussed on page 13), we also reviewed non-electronic, paper-based
incidents of disclosure of personally identifiable information (PII). The National Personnel
Records Center (NPRC) in St. Louis and Valmeyer, MO, processes high numbers of requests for
military and civilian personnel records. Disclosures of PII occur when a requestor receives a
document belonging to another person, or the document included PII of others without proper
redaction. Many recipients of the PII return the documents when they file a complaint regarding
the incorrect documents, agree to return the documents to NPRC, dispose of the documents prior
to filing a complaint, or agree to shred the documents in lieu of returning them to NPRC.

However, NARA does not have a mechanism to match the incorrect documents returned by the
recipients to the complaints filed. The lack of a mechanism to ensure receipt of documents
agreed to be returned may result in inappropriate use of the information by unauthorized
individuals. We made two additional recommendations in order to better protect PII and
minimize the possible adverse impact of a paper-based PII disclosure. Management concurred
with both recommendations (Audit Report #13-15, dated September 25, 2013).




SEMIANNUAL REPORT TO CONGRESS                                                          Page 15
April 1, 2013 to September 30, 2013
INVESTIGATIONS
                                       Investigations
The Office of Investigations (OI) receives and evaluates complaints, and conducts investigations
related to fraud, waste, and abuse in NARA programs and operations. This includes identifying
and recovering alienated NARA holdings. Investigations showing violations of Federal law,
NARA Directives, or contract terms/specifications may result in administrative sanctions, civil
action, or criminal prosecution. Such actions can include employee terminations, contractor
debarments, and court-imposed prison terms, probation, fines, or restitution. The OI may also
issue Management Letters detailing systemic or timely problems or vulnerabilities, and offer
recommendations on how to correct them.

OI activities are broadly divided into two groups: general investigations and archival recovery
investigations. General investigations encompass the entire spectrum of criminal and
administrative investigations, including such topics as procurement fraud, employee misconduct,
and cyber crimes. Archival recovery investigations revolve around protecting NARA’s historical
holdings and returning items missing from NARA’s collection.

The OI has statutory law enforcement authority, and is presently staffed with six 1811 series
criminal investigators and an Investigative Archivist. The OI is based in the National Archives
in College Park, MD (Archives II) but conducts investigations at all NARA locations across the
country. The OI maintains a close relationship with NARA Security Services to coordinate law
enforcement efforts impacting NARA. Specifically, the Investigative Archivist routinely
coordinates efforts with the Holdings Protection Team, a NARA Security Services unit charged
with proactively protecting and securing NARA holdings. We also liaise with the Department of
Justice (DoJ), the OIG community, and other law enforcement agencies and organizations.

Investigative Initiatives

The OI conducts Investigative Initiatives to proactively identify and test vulnerabilities in NARA
programs and operations, and address other OIG concerns. As part of this program, the OI
periodically assesses the agency’s vulnerability to fraud, archival theft, and loss of sensitive
electronic data. These assessments may also be undertaken to review such things as employee
conflicts of interest, systemic weaknesses in operations and controls, incident responses taken by
NARA, and other administrative and criminal topics. Assessments are limited in scope to
quickly identify relevant information and transmit it to NARA management for appropriate
consideration or action.

This period, the OI conducted two assessments. The first was a review of archival security at a
Presidential library that had been the victim of researcher theft. The second was a review of
researcher registration procedures used at four NARA facilities. The OI issued separate reports
for each assessment to NARA management, and responses are pending.

The OI also collects information and documents general investigative activity in Intelligence
Files to improve our own efficiency and enhance the OI’s operational knowledge of NARA
programs, operations and facilities. This period, the OI closed Intelligence Files related to
archival recovery, information security and computer crimes.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 16
April 1, 2013 to September 30, 2013
INVESTIGATIONS
Overall Activity Summary

At the end of the last reporting period, 18 investigations were open. During this reporting
period, 10 investigations were opened, and 13 were closed. Two of the closed investigations
were referred to NARA for action. At the end of this reporting period, 15 investigations were
open.

                                      General Investigations
Updates on Previously Reported General Investigations

Former NARA Employee Guilty of Copyright Infringement
The OI identified five NARA employees who may have knowingly purchased pirated materials
from a former NARA employee who pleaded guilty to criminal copyright infringement. The OI
referred the results to NARA management for consideration of administrative action.

Removal and Destruction of Records
The DoJ filed informations on two former NARA employees for destruction of Federal records
at the National Personnel Records Center in St. Louis, MO. The former employees are alleged to
have removed and destroyed military personnel records.

Potential for Procurement Fraud in Equipment Acquisition
The OI closed an investigation into concerns of fraud and mismanagement in an acquisition for
equipment at multiple NARA facilities. The OI did not find any evidence of fraud, and agency
management is working to improve NARA’s administration of this recurrent procurement.

Child Pornography Allegations
NARA management took administrative action against an employee based in part on an OI
referral of an investigation into allegations the employee accessed child pornography.

Potential Transportation Benefit Fraud
The OI continues to investigate potential transportation benefit fraud. The case was initiated
based on a referral from the Office of Audit.

New General Investigation Highlights

Fire at the John F. Kennedy Library and Museum
The OI assisted the Boston Fire and Police Departments in investigating the cause of a fire at the
John F. Kennedy Library and Museum. Although the fire occurred the same day as the Boston
Marathon bombing, the Boston Fire Department found the fire was accidental.

Allegations of Fraud
The OI continues to investigate allegations a private entity did not comply with elements of a
cooperative agreement.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 17
April 1, 2013 to September 30, 2013
INVESTIGATIONS
Threatening Behavior by a NARA Employee
The OI continues to investigate allegations a NARA employee made threatening comments to a
NARA manager.

Theft of Funds from a Presidential Library
The OI continued work jointly with local enforcement to investigate allegations a former NARA
employee stole funds from a Presidential Library.

                     Archival Recovery Team (ART) Activity
ART is a concept that embodies the OI’s focus on recovering alienated Federal records. ART is
the teaming of agents with the expertise of an Investigative Archivist. These teams often work
with NARA archivists, the Holdings Protection Team, and other law enforcement organizations
responsible for investigating thefts, loss, or trafficking of cultural artifacts and fine art.

Thefts

ART investigates all allegations of theft of NARA holdings. Thefts may be internal or external
and involve NARA employees, contractors, interns, and researchers. ART refers all instances of
substantiated theft to the DoJ for potential criminal prosecution. ART also refers internal thefts
to NARA management for administrative action.

Non-criminal Recoveries

Individuals may intentionally or unknowingly alienate a Federal record before it is accessioned
into NARA’s holdings. Once identified, alienated records are subject to recovery through a legal
process known as replevin, a common law action to recover property unlawfully taken.

If ART receives allegations a record or item was alienated, our Investigative Archivist helps
establish whether the record should have been accessioned into NARA’s holdings. If the record
should have come to NARA, ART refers this substantiation to the NARA Office of General
Counsel (NGC) to begin the replevin process or other methods of recovering the document, such
as voluntary donation. If the holder of the document is unwilling to release or donate a
document, NGC may also pursue recovery through the DoJ civil division.

Proactive

Tips from our public sentinels are critical to successfully recovering our nation’s records. To
leverage the power of their knowledge, ART engages in a variety of initiatives to establish
relationships within the historical artifacts community, and the public at large. Several times
every year, ART staffs a display at various historical artifact shows throughout the country. In
this reporting period, ART attended the Northern Virginia Relic Hunters Association Civil War
Show in Fredericksburg, VA, and the Gettysburg Civil War Collectors show in Gettysburg, PA.

ART maintains a Facebook page updating the public about upcoming shows and ART
happenings, along with other newsworthy items about document thefts, investigations, and

SEMIANNUAL REPORT TO CONGRESS                                                             Page 18
April 1, 2013 to September 30, 2013
INVESTIGATIONS
recoveries at NARA and other institutions worldwide. Visit the site at
http://www.facebook.com/archivalrecoveryteam.

In this reporting period, ART also relied upon a NARA volunteer to search an internet auction
site for federal documents. Finally, ART reviews NARA holdings, identifying items at risk for
theft and making recommendations to NARA about what records should be restricted or
protected.

Missing Documents

Working in conjunction with NARA, ART has established a listing of documents identified as
missing from NARA holdings. Some of these documents are known to have been stolen, but
have never been recovered. Others have simply been identified by NARA archivists or
researchers as missing. In both cases, ART has little or no evidence to work with, so the
documents are posted on the NARA website in the hope of receiving viable leads to recover
these materials. During this period, ART received twelve complaints from the public and NARA
staff about Federal items for sale through online auction sites. ART’s Missing Documents email
also received ten inquiries this period.

Please visit the website at www.archives.gov/research/recover/missing-documents.html to learn
more. If you have information about any documents listed on the site or believe you have seen
Federal document in private hands, please email ART at MissingDocuments@nara.gov.

Updates on Previously Reported ART Investigations

Presidential Historian Sentenced for Theft of Historical Materials
As a result of a joint investigation with the Federal Bureau of Investigation, two subjects pleaded
guilty to conspiracy and theft of historical documents. The subjects stole materials from
numerous museums and other institutions, including seven reading copies of Presidential
speeches from the Franklin D. Roosevelt Library. Both subjects are currently incarcerated in
Federal prisons. This period, the OI transferred 9 items to the Franklin D. Roosevelt Library and
Museum and 46 items to the Herbert Hoover Presidential Library and Museum. The OI also
transferred 148 items to another Federal agency, and 6,263 documents and artifacts to 11 private
and public repositories throughout the country.

Classified Material Unaccounted For at a NARA Records Center
An OI investigation into approximately 1,400 boxes of classified material which had been
identified as potentially missing from a NARA records center was closed pending completion of
inventory validation of the facility’s classified records holding area. The inventory is still
progressing, and the OI will re-open or close final this investigation once the inventory
resolution efforts are complete and we have been briefed on the results.

Document Signed by Revolutionary War General
ART had previously discovered a document signed by Revolutionary War General Peter
Muhlenberg for sale. The document is consistent with holdings at the NARA Mid-Atlantic
region. ART previously referred this document to management for recovery, but additional


SEMIANNUAL REPORT TO CONGRESS                                                              Page 19
April 1, 2013 to September 30, 2013
INVESTIGATIONS
investigation is now necessary to determine to whom the document was sold. The investigation
is ongoing.

Recovery of a U.S. Army Continental Command Record
ART recovered a Weekly Station & Effective Force Report for the 2nd Cavalry Division, dated
October 2, 1865 and authored by Major General George Custer. The report had been listed on the
Missing Documents webpage, and an investigation is ongoing.

New ART Investigative Highlights

Recovery of Marshall Plan Photographs
As a result of an OI investigation, NARA successfully recovered 18,163 photographs depicting
implementation of the Marshall Plan in France. The OI observed and assessed the activities of a
team of NARA employees who collected, examined, packaged and prepared the photographs for
transport from Paris, France, to College Park, MD.

Presidential Pardons
The OI initiated an investigation involving two Presidential pardons: one has been listed on the
Missing Documents list, and the other may also have been alienated from NARA holdings.

Missing Historical WWII Movies
The OI continues investigating allegations historical WWII movies are missing from the
National Archives in College Park, MD (Archives II).

Referrals for Potential Donation
This reporting period, the OI referred to NARA’s General Counsel (NGC) three potential
donations of historical documents. The referrals concerned U.S. Army records from the Vietnam
War, records of Admiral Richard Byrd, and WWII war crimes trial transcripts.

Referrals for Recovery of Alienated Documents
The following referrals either remained ongoing, or were acted on during this reporting period.

    •   Page Missing from a U.S. Naval Deck Log
        A NARA researcher found a page was missing from a deck log for the U.S.S. Malvern.
        The page documents a visit by President Abraham Lincoln to the city of City Point, VA
        on March 25-26, 1865. The missing page was located at another institution and
        coordination is ongoing.

    •   Life-Saving Station Log Book
        A NARA employee found a life-saving station log book at another institution. The log
        book is consistent with holdings at the NARA Mid-Atlantic Region, and NARA
        management and NGC have agreed to seek recovery.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 20
April 1, 2013 to September 30, 2013
INVESTIGATIONS
    •   Alienated State Department Document for Sale
        A NARA researcher found a document for sale that may be part of a State Department
        record. The historically significant document contains handwritten annotations from
        President Franklin D. Roosevelt. NARA management is considering recovery.
    •   Historic Letter for Sale
        ART found a letter for sale believed to have been alienated from NARA holdings. The
        letter is dated May 12, 1861 and concerns troops being fired upon by a mob in St. Louis,
        MO. NARA management is considering recovery.

    •   Records of the U.S. Coast Guard
        Historical records related to Coast Guard activities in Philadelphia during World War II
        were sold online. These records are consistent with those held in the Mid-Atlantic
        Region, and NARA management is considering recovery.

    •   Department of Interior Photographs
        Photographic negatives commissioned by the U.S. Department of Interior were donated
        to a public university. NARA management is considering recovery.

    •   Classified Documents in Personal Papers
        Classified documents were found among personal papers donated to a public university.
        Presidential library staff members are reviewing the documents for declassification and to
        identify any which should be among NARA's holdings.

                                      Computer Crimes Unit

In 2005, NARA OIG established a Computer Crimes Unit (CCU) within the OI. The CCU
provides laboratory and field support for digital evidence seized or surrendered to the NARA
OIG or other law enforcement agencies working with us. Digital evidence forensic support
services can include, among other things, computer forensic examinations on seized digital
media, on-site computer hard drive imaging, expert witness testimony, data analysis to determine
evidentiary value, and technical training. The CCU is staffed by one full-time 1811 series
computer crimes investigator.

During this reporting period, the CCU was re-established after having a vacancy in the unit.
During this time, the CCU completed forensic examinations in support of several criminal
investigations related to copyright fraud, threats against NARA employees, and other instances
of employee misconduct. The CCU also established a working relationship with the NARA
Inappropriate Use Working Group (IUWG). As a result of this working relationship, the CCU
opened three employee misconduct investigations during the reporting period into allegations of
NARA computer misuse. The investigations are ongoing. Finally, the CCU continues to
proactively address cyber threats to the agency, and work with agency stakeholders to help
improve the security of NARA computer systems and employees.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 21
April 1, 2013 to September 30, 2013
INVESTIGATIONS
                                         OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

    •   By telephone
        Washington, DC, Metro area: (301) 837-3500
        Toll-free and outside the Washington, DC, Metro area: (800) 786-2551
    •   By mail
        NARA OIG Hotline
        P.O. Box 1821
        Hyattsville, MD 20788-0821
    •   By e-mail
        oig.hotline@nara.gov
    •   By Fax
        (301) 837-0879
    •   By online referral form
        http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition. Where
appropriate, referrals are made to OIG audit staff, NARA management, or external authorities.
Substantive Hotline contacts are captured as complaints in the Office of Investigations.

                         OIG Hotline Activity for the Reporting Period
                     Complaints received                                      25
                     Complaints closed pending response from NARA              0
                     Complaints closed final                                  18
                     Complaints open to Investigations                         6


                          Contractor Self Reporting Hotline
As required by the Federal Acquisition Regulation, a web-based form allows NARA contractors
to notify the OIG, in writing, whenever the contractor has credible evidence a principal,
employee, agent, or subcontractor of the contractor has committed a violation of the civil False
Claims Act or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or
gratuity violations in connection with the award, performance, or closeout of a contract or any
related subcontract. The form can be accessed through the OIG’s home page, or found directly
at http://www.archives.gov/oig/contractor-form/index.html.


SEMIANNUAL REPORT TO CONGRESS                                                               Page 22
April 1, 2013 to September 30, 2013
SIGNIFICANT DISAGREEMENTS
          Significant Disagreements with Management Decisions
Under the IG Act, as amended, the OIG reports “information concerning any significant
management decision with which the Inspector General is in disagreement.” The following
disagreements were first reported in our last Semi-Annual Report to Congress. However, as
nothing has changed in this reporting period, they remain an issue. We hope to provide an
update in our next Semiannual Report to Congress.

In October 2012, we reviewed NARA’s FY 2012 Draft Federal Manager’s Financial Integrity
Act (FMFIA) statement. We disagreed with the assurance statement for Section 2 of the FMFIA
reporting requirements because the agency had not implemented an entity-wide internal control
program (ICP). Without an ICP the agency is not able to identify all of the existing risks and
potential material weaknesses across the agency. Until NARA implements an ICP it will
continue to underreport material risks related to NARA programs. Additionally, we believe the
FY 2012 agency assurance statement underreported material weaknesses and did not accurately
reflect the breadth of risks in NARA’s Processing, Electronic Records Management, and
Information Security Programs.

NARA’s Processing Programs

NARA’s FY 2012 assurance statement downgraded the Processing Program from a material
weakness to a reportable condition. NARA made this decision based on the current state of
Federal records processing, the strides the agency has made in the last six years, and the current
focus on reengineering processing work. Although the agency has made progress in processing
records by reducing the backlog to 40% of NARA’s holdings, we believe the agency should
continue to identify the program as a material weakness.

We base this decision on the following:
  • In September 2012 Processing Program management reported to the Management
      Control Oversight Council (MCOC) that the large backlog of unprocessed traditional
      records impedes NARA’s ability to provide efficient and effective access and impacts
      NARA’s mission. Additionally, they raised a new concern in FY 2012 regarding serving
      unprocessed records (or inadequately processed records) to researchers which could
      result in the unintentional disclosure of restricted or controlled information (e.g. law
      enforcement, PII, or other restricted information).

    •   Preliminary findings from our current Audit of NARA’s Processing Program indicate
        work remains to be done and additional controls need to be put in place to address the
        backlogs. Some of those preliminary findings are:

        (1) While various studies have been conducted and are still ongoing, management is not
            firm and confusion exists on the current definition of processing and what procedures
            actually constitute processing of records at NARA.
        (2) There is a lack of coordination between the Regions, Libraries, and Research Services
            as there is no one group providing oversight over the Processing Program. While
            there is an agency-wide processing goal, the individual areas (Research Services,

SEMIANNUAL REPORT TO CONGRESS                                                              Page 23
April 1, 2013 to September 30, 2013
SIGNIFICANT DISAGREEMENTS
            Regions, and Libraries) are operating in silos regarding plans on how to decrease their
            individual backlogs and meet the overall agency goal.
        (3) Some Regions are still using old guidance and processing plans from 2008 to process
            their backlog. These processing plans have not been revised to reflect each Region’s
            varying levels of backlog and resource availability.

Until these factors are addressed, NARA’s ability to meet its mission will be affected.

NARA’s Electronic Records Management Program

NARA’s FY 2012 assurance statement reported the Electronic Records Management program as
a control deficiency instead of a material weakness. This decision was predicated on the
issuance of Presidential Records Management Directive and OMB M-12-18, which is an
Executive Branch-wide effort to reform records management policies and practices and to
develop a 21st-century framework for the management of Government records. As a result of
the directive, the Office of Chief Records Officer (CRO) has stood up a project management
team to carry out implementation and oversight of the activities contained in the directive.

Management believes the activities in OMB M-12-18 will serve to guide the development of the
CRO’s operational plans for years to come, and serve as an action plan against which NARA can
monitor and assess progress. However, the directive does not mitigate the existing risks outlined
in our 2010 audit report, OIG #10-04, NARA’s Oversight of Electronic Records Management in
the Federal Government. The report found NARA did not have adequate controls in place to
protect permanent Federal electronic records from loss. Specifically, we reported NARA could
not reasonably ensure permanent electronic records are being adequately identified, maintained,
and transferred to NARA in accordance with Federal regulations. Until sufficient controls are
implemented to minimize these risks, NARA should classify this as a material weakness.

NARA’s Information Security Program

The Information Security Program was reframed by management in FY 2012 as a material
weakness consisting of the risks posed by the need to improve controls over resolving,
responding to, tracking, and closing recommendations in a systematic, consistent, and timely
manner. Management’s assessment does not represent the true material weakness. Actions
taken to rank open recommendations by risk level, and to develop metrics to track how
Information Services is managing recommendations, will not be sufficient to correct the
underlying problems continuing to plague NARA’s Information Security Program. Until defined
roles and responsibilities, continuous monitoring of internal controls and repeatable processes are
put in place, the program will continue to be a material weakness.

Further, OIG, GAO, and NARA internally contracted studies continue to identify information
security areas where policies or procedures are needed or where management needs to
implement existing policies and procedures. Management has made some progress in
establishing IT security policies. However, documented procedures developed from those
policies are needed. Once policies and procedures are in place, NARA can begin to implement
those policies and procedures and ensure they are being followed by testing the implementation.


SEMIANNUAL REPORT TO CONGRESS                                                              Page 24
April 1, 2013 to September 30, 2013
TOP TEN MANAGEMENT CHALLENGES
                                         Overview
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness; and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

1. Electronic Records Archives
NARA initiated the Electronic Records Archive (ERA) program in order to address the challenge
of ingesting, preserving and providing access to our nation's electronic records for as long as
needed. However, virtually since inception the program has been fraught with delays, cost
overruns, and technical short comings and deficiencies identified by our office and the
Government Accountability Office (GAO). In August 2010, the Office of Management and
Budget (OMB) placed ERA on its high-priority list of 26 high-risk Federal IT projects. On
September 30, 2011 the development contract between NARA and Lockheed Martin Corporation
concluded. However, many core requirements were not fully addressed, and ERA lacks the
originally envisioned functionality.

The program is now in an Operations and Maintenance (O&M) phase under a 10-year, $240
million contract with IBM. The O&M tasks to be performed by IBM, under a firm-fixed-price
(FFP) arrangement, include: help desk operations, incident management, problem management,
hardware and software maintenance, asset and configuration management, deployment
management, capacity management, availability management, security services, backup and
recovery services, and ingest operations. The contract also includes replacing and updating the
technologies comprising ERA, and correcting and adapting ERA functionality as necessary to
meet stakeholder needs. These additional tasks will be performed under Technical Direction
Letters (TDLs), which may be either FFP or time-and-materials (T&M) arrangements.

ERA faces many challenges going forward, including addressing increased volumes of data to be
ingested and increased number of users to be supported now that ERA use is mandatory for all
Federal agencies. However, the greatest challenge will be NARA's ability (with vendor support)
to effectively meet stakeholder needs, while operating and maintaining a system whose
development failed to meet core benchmark requirements and lacks originally envisioned
capabilities. Further complicating this task, the Archivist testified to Congress that due to
funding issues NARA will not be able to address concerns raised by ERA users and the OIG.

2. Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby
ensuring people can discover, use, and learn from this documentary heritage. NARA provides
continuing access to the essential documentation of the rights of American citizens and the
actions of their government. The effective management of these records is key to accomplishing
this mission. NARA must work with Federal agencies to ensure the effective and efficient

SEMIANNUAL REPORT TO CONGRESS                                                           Page 25
April 1, 2013 to September 30, 2013
TOP TEN MANAGEMENT CHALLENGES
appraisal, scheduling, and transfer of permanent records, in both traditional and electronic
formats. The major challenge is how best to accomplish this component of our overall mission
while reacting and adapting to a rapidly changing technological environment in which
electronic records, particularly e-mail, proliferate. In short, while the ERA system is intended to
work with electronic records received by NARA, we need to ensure the proper electronic and
traditional records are in fact preserved and sent to NARA in the first place.

In November 2011 a Presidential Memorandum titled Managing Government Records was
issued. This began a new executive branch-wide effort to reform records management policies
and practices. In August 2012, the Office of Management and Budget (OMB) issued
Memorandum 12-18, Managing Government Records Directive, creating a robust records
management framework. This Directive requires agencies, to the fullest extent possible, to
eliminate paper and use electronic recordkeeping. It is applicable to all executive branch
agencies and to all records, without regard to security classification or any other restriction. This
Directive also identifies specific actions to be taken by NARA, OMB, and the Office of
Personnel Management (OPM) to support agency records management programs. Agencies
must manage all permanent electronic records in an electronic format by December 31, 2019,
and must manage both permanent and temporary email records in an accessible electronic format
by December 31, 2016. NARA, its Government partners, and Federal agencies are challenged
with meeting these deadlines, determining how best to manage electronic records in accordance
with this guidance, and how to make ERM and e-Government work more effectively.

3. Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’
Financial Integrity Act reporting process from FY 2007 to FY 2011. NARA’s Office of
Information Services (I) conducted an independent assessment of the IT security program using
the Program Review for Information Security Management Assistance (PRISMA) methodology
developed by the National Institute for Standards and Technology (NIST) in FY 2007. The
assessment stated NARA’s policy and supporting procedures for IT security were weak,
incomplete, and too dispersed to be effective. Over five years later, NARA officials continue to
work to address weaknesses identified during the assessment.

IT security continues to present major challenges for NARA, including physical security of IT
hardware and technical vulnerabilities within our electronic systems themselves and how NARA
operates them. Annual assessments of NARA’s compliance with the Federal Information
Security Management Act have consistently identified program areas in need of significant
improvement. The confidentiality, integrity, and availability of our electronic records and
information technology systems are only as good as our IT security infrastructure. A 2011 GAO
report identified significant weaknesses in access controls and other information security
controls. In FY 2012, an assessment performed by contractors identified multiple deficiencies
with NARA’s network architecture, many of which stem from the lack of strategic planning with
regard to the redundancy, resiliency and overall design of the network. These issues not only
allow for security and performance problems, but they inhibit NARA IT management from
effectively establishing a tactical and innovative strategy for the next generation of NARA’s
network. Each year, risks and challenges to IT security continue to be identified. NARA must


SEMIANNUAL REPORT TO CONGRESS                                                                Page 26
April 1, 2013 to September 30, 2013
TOP TEN MANAGEMENT CHALLENGES
ensure the security of its data and systems or risk undermining the agency’s credibility and
ability to carry out its mission.

4. Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more
aggressively inform and educate our customers about the services we offer and the essential
evidence to which we can provide access. Unfortunately, approximately 35 percent of NARA’s
textual holdings have not been processed to allow efficient and effective access to these records.
To meet its mission, NARA must work to ensure it has the processes and resources necessary to
establish intellectual control over this backlog of unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate
access to information online, will be to provide such access to records created digitally (“born
digital”) and to identify those textual records most in demand so they can be digitized and made
available electronically. ERA’s diminished access capabilities compound this problem.
NARA’s role in ensuring the timeliness and integrity of the declassification process of classified
material held at NARA is also vital to public access.

5. Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records
to meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to
ensure NARA’s own facilities, as well as those used by other Federal agencies, are in
compliance with these regulations; and to effectively mitigate risks to records which are stored in
facilities not meeting these standards.

6. Preservation Needs of Records
NARA holdings grow older daily, and face degradation associated with time. This affects both
traditional paper records, and the physical media that electronic records and audiovisual records
are stored on. Per management, preservation resources have not been able to adequately address
the growth in holdings needing preservation action. Preserving and providing access to records is
a fundamental element of NARA’s duties to the country, and NARA cannot provide access to
records unless it can preserve them for as long as needed. The backlog of records needing
preservation action continues to grow. NARA is challenged to address this backlog and future
preservation needs, including the data integrity of electronic records. Further, NARA’s primary
tool for preserving electronic records, the ERA system, has not delivered the functionality
necessary to address record format obsolescence (see OIG Challenge #1). The challenge of
ensuring NARA facilities meet environmental standards for preserving records (see OIG
Challenge #5) also plays a critical role in the preservation of Federal records.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 27
April 1, 2013 to September 30, 2013
TOP TEN MANAGEMENT CHALLENGES
7. Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right
equipment and systems to accomplish NARA’s mission. Complex and high-dollar contracts
require multiple program managers, often with varying types of expertise. NARA is challenged
with planning projects, developing adequately defined requirements, analyzing and testing to
support acquisition and deployment of the systems, and providing oversight to ensure effective
or efficient results within costs. Currently, IT systems are not always developed in accordance
with established NARA guidelines. These projects must be better managed and tracked to ensure
cost, schedule, and performance goals are met.

As an example, GAO reported NARA did not document the results of briefings to its senior
management oversight group during the development of NARA’s largest IT project, the ERA
program. There is little evidence the group identified or took appropriate corrective actions, or
ensured such actions were taken and tracked to closure. Without adequate oversight evaluating
project progress, including documenting feedback and action items from senior management,
NARA will not be able to ensure projects are implemented at acceptable cost and within
reasonable time frames. GAO also reports NARA has been inconsistent in its use of earned
value management (EVM), a project management approach providing objective reports of
project status and early warning signs of cost and schedule overruns. Inconsistent use of key
project management disciplines like EVM limits NARA’s ability to effectively manage projects
and accurately report on their progress.

8. Physical and Holdings Security
The Archivist has identified security of collections as a material weakness for the agency.
Document and artifact theft is not a theoretical threat; it is a reality NARA has been subjected
to time and time again. NARA must maintain adequate levels of security to ensure the safety
and integrity of persons and holdings within our facilities. This is especially critical in light of
the security realities facing this nation and the risk our holdings may be pilfered, defaced, or
destroyed by fire or other man-made and natural disasters. Not only do NARA’s holdings have
immense historical and financial value, but we hold troves of national security information as
well. Developments such as the creation of the Holdings Protection Team and implementation
of stricter access controls are welcome additions to NARA’s security posture and should be
commended. However, NARA must continually strive to improve in this area.

9. Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide
initiative. The CSM initiative includes enhancing the acquisition workforce, increasing
competition, improving contract administration skills, improving the quality of acquisition
management reviews, and strengthening contractor ethics requirements. Effective contract
management is essential to obtaining the right goods and services at a competitive price to
accomplish NARA’s mission. NARA is challenged to continue strengthening the acquisition
workforce and to improve the management and oversight of Federal contractors. NARA is also


SEMIANNUAL REPORT TO CONGRESS                                                                 Page 28
April 1, 2013 to September 30, 2013
TOP TEN MANAGEMENT CHALLENGES
challenged with reviewing contract methods, to ensure a variety of procurement techniques are
properly used in accordance with laws, regulations and best practices.

10. Management of Internal Controls
OMB Circular A-123, Management’s Responsibility for Internal Control, explains management
is responsible for establishing and maintaining internal control to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations. GAO has reported NARA has not established an enterprise risk
management capability, thus reducing its ability to anticipate future challenges and avoid
potential crises. Currently, the agency has not established an effective internal control program,
and OIG audit recommendations from as far back as FY 2009 concerning an internal control
program have yet to be implemented. Thus, NARA is vulnerable to risks that may not be
foreseen or mitigated, and does not have the ability to self-identify and appropriately manage or
mitigate significant deficiencies. Establishment of an internal control program is critical as it
provides several benefits including (1) improved decision making, (2) risk identification,
management, and mitigation, (3) opportunities for process improvement, (4) effective use of
budgeted resources, and (5) strategic planning. NARA’s challenge is to ensure the agency is in
compliance with OMB Circular A-123; and to develop and fully implement an internal control
program.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 29
April 1, 2013 to September 30, 2013
REPORTING REQUIREMENTS
MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS
          AMENDED, AND OTHER LAWS
REQUIREMENT             SUBJECT                                             PAGE(S)

Section 4(a)(2)         Review of legislation and regulations               7–8

Section 5(a)(1)         Significant problems, abuses, and deficiencies      2 – 4, 11 – 15,
                                                                            17 – 20

Section 5(a)(2)         Significant recommendations for corrective action   2 – 4, 11 – 15

Section 5(a)(3)         Prior significant recommendations unimplemented     33

Section 5(a)(4)         Summary of prosecutorial referrals                  32

Section 5(a)(5)         Information or assistance refused                   33

Section 5(a)(6)         List of reports issued                              32

Section 5(a)(7)         Summaries of significant reports                    2 – 4, 11 – 15

Section 5(a)(8)         Audit Reports—Questioned costs                      33

Section 5(a)(9)         Audits Reports—Funds put to better use              34

Section 5(a)(10)        Prior audit reports with no management decision     33

Section 5(a)(11)        Significant revised management decisions            33

Section 5(a)(12)        Significant management decisions                    23 – 24, 33
                        with which the OIG disagreed

Section 5(a)(14)        Reporting on OIG peer review                        8

P.L. 110-181            Annex of completed contract audit reports           34




SEMIANNUAL REPORT TO CONGRESS                                                      Page 30
April 1, 2013 to September 30, 2013
REPORTING REQUIREMENTS
STATISTICAL SUMMARY OF INVESTIGATIONS

Investigative Workload
        Complaints received this reporting period                                        25
        Investigations pending at beginning of reporting period                          18
        Investigations opened this reporting period                                      10
        Investigations closed this reporting period                                      13
        Investigations carried forward this reporting period                             15
Categories of Closed Investigations
        Fraud                                                                             0
        Conflict of Interest                                                              0
        Contracting Irregularities                                                        0
        Misconduct                                                                        2
        Larceny (theft)                                                                   2
        Other                                                                             9
Investigative Results
        Cases referred – accepted for prosecution                                         0
        Cases referred – declined for prosecution                                         0
        Cases referred – pending prosecution decision                                     0
        Arrest                                                                            0
        Indictments and informations                                                      2
        Convictions                                                                       0
        Fines, restitutions, judgments, and other civil and administrative recoveries    $0
        NARA holdings recovered                                                         18,164
Administrative Remedies
        Employee(s) terminated                                                            0
        Employee(s) resigned                                                              1
        Employee(s) suspended                                                             0
        Employee(s) given letter of reprimand or warnings/counseled                       0
        Employee(s) taking a reduction in grade in lieu of administrative action          0
        Contractor (s) removed                                                            0

        Individual(s) barred from NARA facilities                                         0


SEMIANNUAL REPORT TO CONGRESS                                                            Page 31
April 1, 2013 to September 30, 2013
        REPORTING REQUIREMENTS
                                SUMMARY OF PROSECUTORIAL REFERRALS
                                                    Requirement 5(a)(4)
        Accepted for Prosecution

        None.

        Declined for Prosecution

        None.

        Pending Prosecutorial Determination

        None.


                                    LIST OF AUDIT REPORTS ISSUED
                                                Requirement 5(a)(6)
Report      Title                                     Date           Questioned   Unsupported   Funds Put to
No.                                                                  Costs        Costs         Better Use
13-08       Audit of NARA’s Preservation
                                                       07/09/2013         $0          $0             $0
            Program
13-09       Audit of NARA’s Data Backup
                                                       07/09/2013         $0          $0           $89,112
            Operations
13-10       NARA Archival Facilities                   07/19/2013         $0          $0             $0
13-11       Audit of the Base ERA System’s
                                                       09/19/2013         $0          $0             $0
            Ability to Ingest Records
13-12       Audit of NARA’s Intrusion Detection
            and Prevention Systems and Incident        09/10/2013         $0          $0             $0
            Response
13-14       Audit of Processing of Textual
                                                       09/18/2013         $0          $0             $0
            Records
13-15       NARA’s Handling of Paper-Based
            Disclosure of Personally Identifiable      09/25/2013         $0          $0             $0
            Information (PII)




        SEMIANNUAL REPORT TO CONGRESS                                                            Page 32
        April 1, 2013 to September 30, 2013
REPORTING REQUIREMENTS
                    AUDIT REPORTS WITH QUESTIONED COSTS
                                        Requirement 5(a)(8)

                                              Number of
                                                                      DOLLAR VALUE
Category                                                          Questioned          Unsupported
                                               Reports
                                                                    Costs                Costs

A. For which no management decision
                                                   0                   $0                 $0
   has been made by the commencement
   of the reporting period
B. Which were issued during the
                                                   0                   $0                 $0
   reporting period
   Subtotals (A + B)                               0                   $0                 $0
C. For which a management decision has
                                                   0                   $0                 $0
   been made during the reporting period
   (i) dollar value of disallowed cost             0                   $0                 $0
   (ii) dollar value of costs not
                                                   0                   $0                 $0
   disallowed
D. For which no management decision
   has been made by the end of the                 0                   $0                 $0
   reporting period
E. For which no management decision
                                                   0                   $0                 $0
   was made within 6 months



                               OTHER REQUIRED REPORTS

REQUIREMENT                                  CATEGORY                            SUMMARY
5(a)(3)                    Prior significant recommendations unimplemented     See generally the
                                                                               audits on the
                                                                               Processing and
                                                                               Preservation
                                                                               Programs on
                                                                               pages 13 and 14.
5(a)(5)                    Information or assistance refused                   None
5(a)(10)                   Prior audit reports with no management decision     None
5(a)(11)                   Significant revised management decisions            None
5(a)(12)                   Significant management decisions with which the     See pages 23 and 24.
                           OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                              Page 33
April 1, 2013 to September 30, 2013
REPORTING REQUIREMENTS
              AUDIT REPORTS WITH RECOMMENDATIONS THAT
                      FUNDS BE PUT TO BETTER USE
                                      Requirement 5(a)(9)



              CATEGORY                            NUMBER                   DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                   3                        $9,059,262
   the reporting period
B. Which were issued during the reporting
                                                      1                           $89,112
   period
   Subtotals (A + B)                                  4                        $9,148,374
C. For which a management decision has
                                                      0                            $0
   been made during the reporting period
   (i) dollar value of recommendations
                                                      0                            $0
        that were agreed to by management
        Based on proposed management
                                                      0                            $0
        action
        Based on proposed legislative
                                                      0                            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                    0                            $0
        management
D. For which no management decision has
   been made by the end of the reporting              4                        $9,148,374
   period
E. For which no management decision was
   made within 6 months of issuance                   3                        $9,059,262




            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS
Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While the OIG audited the ERA and other contracts during this
period, they were generally program audits as opposed to contract audits.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 34
April 1, 2013 to September 30, 2013
